   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2010 AND FY 2009
      Federal Aviation Administration

       Report Number: QC-2011-011
      Date Issued: November 10, 2010
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                Date:    November 10, 2010
           Financial Statements for fiscal years 2010 and
           2009, Federal Aviation Administration
           Report Number: QC-2011-011

  From:    Calvin L. Scovel III                                  Reply to
                                                                 Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           I respectfully submit our report on the Quality Control Review of the Federal
           Aviation Administration’s (FAA) audited Financial Statements for Fiscal Years
           (FY) 2010 and 2009.

           The audit of FAA’s Financial Statements as of and for the years ended
           September 30, 2010, and September 30, 2009, was completed by Clifton
           Gunderson LLP (Clifton Gunderson), of Calverton, Maryland (see Attachment),
           under contract to the Office of Inspector General (OIG). We performed a quality
           control review of the audit work to ensure that it complied with applicable
           standards. These standards include the Chief Financial Officers Act, as amended;
           generally accepted government auditing standards prescribed by the Comptroller
           General of the United States; and Office of Management and Budget Bulletin
           07-04, “Audit Requirements for Federal Financial Statements,” as amended.

           Clifton Gunderson concluded that the financial statements present fairly, in all
           material respects, FAA's financial position as of September 30, 2010, and
           September 30, 2009, and its net costs, changes in net position, and budgetary
           resources, for the years then ended.

           We congratulate FAA for obtaining clean audit opinions with no material
           weaknesses for 3 consecutive years. FAA should be commended for making
           significant progress in correcting control deficiencies pertaining to its Property,
           Plant, and Equipment (PP&E) accounting and reporting, which is no longer
           considered a significant deficiency. However, due to the magnitude and
                                                                               2


complexity of FAA’s PP&E accounting and reporting, continued management
attention would be prudent.

Clifton Gunderson FY 2010 Audit Report

Clifton Gunderson reported one significant deficiency in internal control and no
instances of reportable noncompliance with laws and regulations.

Significant Deficiency

   1. Controls over Financial Systems and Applications - FAA needs to
      implement effective security controls to protect its financial information
      from unauthorized access, modification, and disclosure throughout the year.

Clifton Gunderson made two recommendations to FAA to strengthen its financial
systems and applications controls. We agree with both recommendations, and are
therefore making no additional recommendations. FAA officials concurred with
the significant deficiency and the recommendations, and committed to implement
corrective actions by April 30, 2011. In accordance with DOT Order 8000.1C, the
corrective actions taken in response to the recommendations are subject to
follow up.

Our review disclosed no instances in which Clifton Gunderson did not comply, in
all material respects, with applicable auditing standards.

We appreciate the cooperation and assistance of FAA representatives, the Office
of Financial Management, and Clifton Gunderson. If we can answer any
questions, please call me at (202) 366-1959; Lou Dixon, Principal Assistant
Inspector General for Auditing and Evaluation, at (202) 366-1427; or Earl Hedges,
Acting Assistant Inspector General for Financial and Information Technology
Audits, at (410) 962-1729.


Attachment

                                        #
